No.
IN THE

Supreme Court of the United States
OCTOBER TERM, 2019

ANTONIO U. AKEL,
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Antonio U. Akel, has enclosed Petition for Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit without prepayment of costs
and to proceed in forma pauperis in accordance with Supreme Court Rule 39, and 18
U.S.C. ยง 3006A(d)(6). The filing of this petition is a continuation of the
representation of the Defendant under a Criminal Justice Act appointment of the
undersigned by the Eleventh Circuit. In accordance with 18 U.S.C. ยง 3006A(d)(6),
no affidavit as required by Supreme Court Rule 39, need be filed.

WHEREFORE, Petitioner, Antonio U. Akel, asks for leave to proceed in forma
pauperis.

Dated this 27" day of August, 2020

26
yphLorwunl

Noel G. Lawrence, Esquire
Florida Bar No.: 844251

LAW OFFICES OF

NOEL G. LAWRENCE, P.A.
101 Union Street East, Suite 200
Jacksonville, Florida 32202
Telephone: 904-356-9928
Facsimile: 904-356-6762

Email: nglawren@Ipnlaw.com

Attorney for Petitioner

27
